App. 1 - [ECF 15]
Michael A. Sweet (SBN 184345)
msweet@foxrothschild.com
Jack Praetzellis (SBN 267765)
jpraetzellis@foxrothschild.com
Fox Rothschild LLP
345 California Street, Suite 2200
San Francisco, CA 94104
Telephone: (415) 364-5540
Facsimile: (415) 391-4436
Attorneys for Plaintiff E. Lynn Schoenmann,
Chapter 7 Bankruptcy Trustee for
Artem Koshkalda
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Artem Koshkalda,
Case No. 2:18-CV05087-FMO-AGR
individually and as
Sole Shareholder and
Transferee of ART, LLC, NOTICE OF
PLAINTIFF’S VOL­
Plaintiff,
UNTARY DISMISSAL
OF ACTION
vs.
PURSUANT TO
FEDERAL RULE OF
Seiko Epson
CIVIL PROCEDURE
Corporation and Epson
41(a)(l)(A)(i)
America, Inc. and Does
1 — 50, inclusive,
Defendant(s).
WHEREAS, Artem Koshkalda (“Koshkalda”) is
the debtor in a bankruptcy case now pending in the
United States Bankruptcy Court for the Northern

App. 2 - [ECF 15]
District of California, No. 18-30016 (the “Bankruptcy
Case”), which was commenced on January 5, 2018;
WHEREAS, E. Lynn Schoenmann (“Trustee
Schoenmann”) is the duly ap-pointed and serving
trustee in bankruptcy for the estate of Koshkalda (the
“Estate”);
WHEREAS, the claims alleged in the abovecaptioned action are the proper-ty of the Estate, for
which only Trustee Schoenmann is empowered and
authorized to act;
WHEREAS, when it was called to the attention
of the Bankruptcy Court supervising the Bankruptcy
Case that Koshkalda had filed this action during the
pen-dency of the Bankruptcy Case, the Bankruptcy
Court ruled that Koshkalda lacked the authority to
commence this action; and
WHEREAS, the Bankruptcy Court entered its
order on June 28, 2018, a copy of which is attached
hereto as Exhibit 1, in para. 2 specifically authorizing
Trustee Schoenmann to dismiss this action; NOW,
THEREFORE, Trustee Schoenmann, as the
true plaintiff herein, pursuant to Federal Rule of Civil
Procedure 41(a)(l)(A)(i), gives notice that this action
is voluntarily dismissed in its entirety, with
prejudice. The defendants herein have not filed an
answer or motion for summary judgment in this
action. Accordingly, pursuant to Rule 41(a)(l)(A)(i)
this action is dismissed upon the filing of this Notice
and without order of the court.

App. 3 - [ECF 15]
Dated: July 18, 2018
FOX ROTHSCHILD LLP
By: /s/Michael Sweet
Attorneys for Plaintiff
E. Lynn Schoenmann,
Chapter 7 Bankruptcy Trustee for
Artem Koshkalda

App. 4 - [ECF 15]

EXHIBIT 1
Entered on Docket
June 28,2018
Edward J. emmonds, clerk
U.S. BANKRUPTCY COURT
NORTHERN DISTRICT OF CALIFORNIA

SIGNED AND FILED: JUNE 28, 2018

/SA
HANNAH L. BLUMENSTIEL
U.S. BANKRUPTCY JUDGE

UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF
CALIFORNIA
IN RE:

) Case No. 18-30016
) HLB

Artem Koshkalda, )
) Chapter 7
Debtor. )
ORDER GRANTING IN PART DEBTOR’S
MOTION TO COMPEL ABANDONMENT
On June 28, 2018, the court held a hearing on
Debtor’s Motion to Compel Abandonment of Epson
Litigation and Appeal Rights (the “Motion”).
Appearances were as noted on the record. Upon due
consideration of the pleadings and argument of the
parties, and for the reasons stated on the record, the
court ORDERS as follows:
(1) The Motion is GRANTED to the extent necessary
to permit Debtor to pursue and defend the

App. 5 - [ECF 15]
Infringement Action [Seiko Enson Corn, et al. v.
InkSvstem LLC et al.. Case No. 3:16-cv-00524
RJC-VPC in the United States District Court for
the District of Nevada, Reno Division] through the
entry of judgment and through any appeals
arising from the Infringement Action.
(2) In all other respects, the Motion is DENIED and
the Chapter 7 Trustee is specifically authorized to
dismiss the action recently commenced in the
United States District Court for the Central
District of California [Artem Koshkalda etc, v.
Seiko Enson Corn, et al.. Case No. 2:18-cv-0527FMO-AGR] in light of the concession by Debtor’s
Counsel that Debtor did not possess the authority
to commence that action.
**end of order**

App. 6 - [ECF 15]
Proof of Service
I am employed in the County of San Francisco,
State of California. I am over the age of eighteen years
and not a party to this action. My business address is:
Fox Rothschild LLP, 345 California Street, Suite
2200, San Francisco, CA 94104-2670.
On July 19, 2018, 1 served the following
document(s):
NOTICE OF PLAINTIFF'S VOLUNTARY
DISMISSAL OF ACTION PURSUANT TO
FEDERAL RULE OF CIVIL PROCEDURE
41(A)(1)(A)(I)
on the interested party(ies) in this action by placing
true copies thereof enclosed in sealed envelope(s)
addressed as follows:
Bankruptcy Counsel for Artem Koshkalda
Greg Rougeau
Brunetti Rougeau
235 Montgomery Street
Suite 410
San Francisco, CA 94104
[BY FIRST CLASS MAIL]: I placed the
X
envelope for collection and mailing following our
ordinary business practices. I am readily familiar
with this business's practice for collecting and
processing correspondence for mailing. On the same
day that correspondence is placed for collection and

App. 7 - [ECF 15]
mailing, it is deposited in the ordinary course of
business with the United States Postal Service in a
scaled envelope with postage fully prepaid.
X [FEDERAL] I declare under penalty of perjury
under the laws of the United States of America that
the foregoing is true and correct and that I am
employed in the office of a member of the bar of this
Court at whose direction the service was made.
Executed this 19th day of July at San Francisco,
California.
/s / Peggy Basa
Peggy Basa

App. 8 - [ECF 22]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
ARTEM KOSHKALDA,

Case No. CV 18-5087
FMO (AGRx)

Plaintiff,
ORDER RE: PENDING
MOTION

v.
SEIKO EPSON
CORPORATION, et al.,
Defendants.

Having reviewed and considered all the
briefing filed with respect to plaintiff Artem
Koshkalda’s (“plaintiff’ or “Koshkalda”) Motion to Set
Aside Notice of Voluntary DismissalQ (Dkt.16,
“Motion”), the court finds that oral argument is not
necessary to resolve the Motion, see Fed.R. Civ. P. 78;
Local Rule 7-15; Willis v. Pac. Mar. Ass’n. 244 F.3d
675, 684 n. 2 (9th Cir. 2001),and concludes as follows.

BACKGROUND
Plaintiff is the owner and sole shareholder of
ART, LLC. (See Dkt. 1, Complaint at t 2). According
to plaintiff, his company was in the business of selling
office supplies, including printers and printer ink
cartridges. (See id. at f 12). By 2016, almost all the
ink cartridges plaintiff sold were of defendants Seiko
Epson Corporation and Epson America, Inc.’s
(collectively, “defendants”) brand. (See id. at ^1 14).
Defendants are manufacturers of printers and ink
cartridges. (See Dkt. 16-1, Memorandum (“Memo”) at
1). Plaintiff accuses defendants of making wrongful

App. 9 - [ECF 22]
complaints to U.S. Customs agents, in which they
represented that plaintiff was selling counterfeit
Epson cartridges, when in fact plaintiff was importing
genuine Epson cartridges. (See Dkt. 1, Complaint at
18-21). Plaintiff also accuses defendants of
initiating a lawsuit in Nevada federal court in order
to wrongfully seize the ink cartridges. (See id. at ^
22-41).
For their part, defendants accuse plaintiff and
ART LLC of being the centerpiece of “a sophisticated
global network” of counterfeit ink cartridge
producers. (See Dkt. 17, Opposition to Motion[]
Upon discovering plaintiffs
("Opp.”) at 3).
counterfeiting activities, which were being conducted
out of Reno, Nevada, (see id.), defendants filed a
lawsuit in Nevada federal court, asserting trademark
infringement on September 8, 2016. (See Dkt. 18-1,
Exh. C, Civil Docket at ECF 162 & 168).30 On
September 13, 2016, the Nevada court entered an
30 Plaintiff argues that the court may not take judicial
notice of defendants’ exhibits. (See Dkt. 20, Reply at
5-6). However, as plaintiff concedes, (see id.), the
court may “takeQ judicial notice of the existence and
legal effect of the documents submitted by
[defendants], but does not judicially notice the truth
of the matters asserted in them.” U.S. Bank, N.A. v.
Miller. 2013 WL12114100, *4 (C.D. Cal. 2013); see
also Nevlon v. Ctv. of Invo. 2016 WL 6834097, *5 (E.D.
Cal.2016) (“Federal courts may take judicial notice of
the proceedings from other courts, including
judgments, orders, and minutes. However, facts and
factual findings contained within court documents
generally are not the proper subject of judicial
notice.”) (internal citations omitted).

App. 10 - [ECF 22]
order authorizing the seizure and impoundment of,
inter alia, counterfeit Epson products in plaintiffs
possession. (See Dkt. 1-1, Exh. A, Temporary
Restraining Order & Order for Seizure and
Impoundment). On October 21, 2016, the Nevada
court entered a preliminary injunction confirming the
Septemberl3, 2016, order. (See Dkt. 18-1, Exh. E,
Preliminary Injunction Order at ECF 219).
On August 3, 2017, the magistrate judge in the
Nevada action recommended imposition of
terminating sanctions against Koshkalda and ART
LLC due to their “repeated disobedience and failure
to comply with the court’s orders[.]” (Dkt. 18-1, Exh.
F, Report and Recommendation at ECF 226, 229).
The district judge adopted the magistrate judge’s
recommendation, and struck Koshkalda and ART
LLC’s answer and ordered the clerk to enter default.
(See id.. Exh. H, Order at ECF 246). On February 3,
2018, the Nevada court entered default judgment
against Koshkalda and ART LLC. (See id.. Exh. M,
Transcript of Motion Hearing at ECF 288).
Separately, on January 5, 2018, plaintiff filed a
Chapter 11 bankruptcy petition, for both himself and
ART LLC, in the United States Bankruptcy Court for
the Northern District of California. (See Dkt. 1,
Complaint at ^ 9). The bankruptcy court converted
the matter to a chapter 7 bankruptcy, and appointed
a trustee in March 2018. (See id. at ]| 10).
On June 8, 2018, approximately six months
after plaintiff filed for bankruptcy, he filed suit in this
court, alleging causes of action for: (1) wrongful
seizure pursuant to 15 U.S.C. §1116(d)(ll); (2)
intentional interference with prospective economic
advantage; (3) conversion; and (4) unfair competition,

App. 11 - [ECF 22]
in violation of California Business and Professions
Code §§ 17200 et seq.(Dkt. 1, Complaint at
42-71).
On June 28, 2018, the bankruptcy court
entered an order authorizing the trustee to dismiss
the present action. (See Dkt. 15, Voluntary
DismissalQ, Exh. 1, Order Granting in Part Debtor’s
Motion to Compel Abandonment at ECF 62) (holding
that “the Chapter 7 Trustee is specifically authorized
to dismiss the action recently commenced in the
United States District Court for the Central District
of California ... in light of the concession by Debtor’s
Counsel that Debtor did not possess the authority to
commence that action.”). On July 19, 2018, the
bankruptcy trustee fileda notice of voluntary
dismissal pursuant to Federal Rule of Civil Procedure
41(a)(1)(A)(I). (See Dkt. 15). The trustee dismissed
this lawsuit with prejudice. (See id. at 2).
Subsequently, plaintiff brought the instant Motion,
asking the court to set aside the dismissal. (See Dkt.
16, Motion).
DISCUSSION
Plaintiff invokes Federal Rule of Civil
Procedure 60(b) in arguing that the trustee’s
dismissal should be set aside. (See Dkt. 16-1, Memo
at 5). This Rule provides that:
On motion and just terms, the court may
relieve a party or its legal representative from
a final judgment, order, or proceeding for the
following reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have been

App. 12 - [ECF 22]
discovered in time to move for a new trial under
Rule59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b).
I.

MISTAKE.

Plaintiff first argues that the trustee’s
voluntary dismissal should be set aside under Fed.R.
Civ. P. 60(b)(1) due to mistake. (See Dkt. 16-1, Memo
at 6). Specifically, plaintiff claims that the trustee
believed that, by dismissing the instant action with
prejudice, plaintiff would be free to refile it in a
Nevada court. (See id.). Plaintiff points to a
September 13, 2018, bankruptcy hearing at which
counsel for defendants said that the trustee dismissed
this action with prejudice because “she thinks the
dismissal with prejudice in [Los Angeles] simply was,
in essence, a preclusion of refiling the action in [Los
Angeles] but not precluding [plaintiff] from filing it in
Reno.” (Dkt. 16-2, Declaration of Michael J. Hansen
(“Hansen Decl.”) at U 14) (quoting hearing transcript).
According to plaintiff, the trustee did not contest this
characterization. (See Dkt. 16-1, Memo at 6). Instead,
she told the bankruptcy court that her dismissal of
this case was “not an assessment in any way, shape

App. 13 - [ECF 22]
or form of the merits of [the instant] claims[.]” (Dkt.
16-2, Hansen Decl. at U 15) (quoting hearing
transcript).
However, the record indicates that the trustee
knew what she was doing when she dismissed this
action with prejudice. In an August 16, 2018, filing
before the bankruptcy court, the trustee stated that
“[t]he contentions that [Koshkalda] wishes to make
concerning the ‘Seized Products’ are included in the
scope of the [Nevada action], which - after all — were
seized pursuant to orders issued in that action.” (Dkt.
18-1, Exh. R, Trustee’s Opposition to Debtor’s Motion
to CompelQ at ECF 321-22). The trustee explained
her decision to dismiss the present action with
prejudice: “A dismissal without prejudice would have
left open the possibility of this improper action being
refiled by the Debtor, and countenanced the Debtor’s
continuing attempt to multiply and fragment
litigation that has its source in the contentions of the
parties in the Infringement Action in the Reno
District Court. Solely to prevent that possibility, the
Trustee filed the dismissal with prejudice.” (Id- at
ECF 322).
In any event, even assuming that the trustee
was under the mistaken belief that dismissal with
prejudice would preserve plaintiffs present claims,
relief under Rule 60(b)(1) still would not be
warranted. This is because a court generally will not
grant Rule 60(b)(1) relief where a party’s own mistake
as to the law leads to an adverse judgment. See, e.g..
Jacobsen v. People of the State of Cal.. 2016 WL
7616705, * 7 (E.D. Cal. 2016) (“Rule 60(b)(1) does not
excuse ignorance, carelessness, or inexcusable neglect
for mistakes of law[.]”). In Latshaw v. Trainer
Wortham &Co.. Inc.. 452 F.3d 1097 (9th Cir. 2006),

App. 14 - [ECF 22]
the Ninth Circuit discussed Rule 60(b)(1) within the
context of mistakes of law arising from attorney error.
The Latshaw court held that Rule 60(b)(1) does not
“provide relief on account of excusable neglect to the
alleged attorney-based mistakes of law at issue here.”
Id. at 1101; see also Engleson v. Burlington N, R. Co..
972 F.2d 1038, 1043(9th Cir. 1992) (“Neither
ignorance nor carelessness on the part of the litigant
or his attorney provide grounds for relief under Rule
60(b)(1).”) (internal quotation marks omitted); Yapp
v. Excel Corn.. 186 F.3d 1222, 1231 (10th Cir. 1999)
(Rule 60(b)(1) relief not appropriate because “a party
who simply misunderstands or fails to predict the
legal consequences of his deliberate acts cannot later,
once the lesson is learned, turn back the clock to undo
those mistakes.”); Cashner v.Freedom Stores. Inc.. 98
F.3d 572, 577 (10th Cir. 1996) (“If the mistake alleged
is a party’s litigation mistake, we have declined to
grant relief under Rule 60(b)(1) when the mistake was
the result of a deliberate and counseled decision by
the party.”).
In sum, the record indicates that the trustee
knew what she was doing when she dismissed the
instant action with prejudice. However, even
assuming the trustee dismissed the instant action
with prejudice based upon her mistaken view of the
law, such a mistake does not furnish grounds for
plaintiff s requested relief.
II. NEWLY DISCOVERED EVIDENCE.
Plaintiff next argues that the voluntary
dismissal should be set aside under Rule 60(b)(2) due
to newly discovered evidence. (See Dkt. 16-1, Memo
at 6-9). This new evidence consists of defendants’

App. 15 - [ECF 22]
assertion of the common interest privilege over some
of their communications with the trustee. (See Dkt.
16-1, Memo at 6-7). From this, plaintiff infers that
defendants “and the Trustee have been in cahoots
adverse to Plaintiff for more than six (6) months,” (id.
at 7), and that “the Trustee was sharing attorney client communications with [defendants] in a shared
effort to harm Plaintiff.” (Id. at 8). Beyond defendants’
assertion of a common interest privilege, plaintiff
points to the fact that he offered to purchase the
claims in this action from the trustee for $60,000, but
the trustee chose to dismiss this case with prejudice
rather than take the offer. (See id. at 3-4).
Contrary to plaintiffs assertion that
defendants and the trustee “had secretly agreed to
work together adverse to Plaintiff,” (Dkt. 20, Reply at
13), the record indicates that a more plausible
explanation for the trustee’s conduct is that
defendants and the trustee were both concerned that
plaintiff might be hiding assets of his estate from the
trustee. (See Dkt. 17, Opp. at 13). Indeed, defendants
asserted the common interest privilege only with
respect to some of the communications they had with
the trustee about this specific subject, i.e., whether to
accept plaintiffs offer to purchase the claims. (See
id.). This explanation also accounts for why the
trustee did not accept Koshkalda’s $60,000 offer.
Since she was uncertain of the source of these funds,
the trustee may well have been disinclined to sell the
rights to bring this lawsuit to plaintiff.
Finally, it is well-settled that “bankruptcy
trustees Q owe fiduciary duties to the estate and
creditors, and in some situations, to the debtor.”
Slaieh v. Simons. 584 B.R. 28, 41 (Bankr. C.D.Cal.
2018). Where the trustee violates these duties, “the

App. 16 - [ECF 221
Supreme Court has established the general
proposition that bankruptcy trustees may be held
personally liable 1.1” In re Ferrante. 5lF.3d 1473,1478
(9th Cir. 1995). Under the circumstances here, the
court is unwilling to hold that the bankruptcy trustee
was colluding with defendants in order to harm
plaintiffs interests, particularly where there is no
apparent motive for the trustee to have done so, (see.
generally, Dkt.16, Motion; Dkt. 20, Reply), and where
this conspiracy, to the extent it also harmed the
estate, could have exposed the trustee to personal
liability.31

31 The court also concludes that the trustee’s
purported admission before the bankruptcy court that
she was taking a “hands off’ approach to this lawsuit,
(see Dkt. 16-1, Memo at 7) does not constitute new
evidence of the kind that warrants Rule 60(b)(2)
relief. See Feature Realty. Inc, v. City of Spokane. 331
F.3d 1082, 1093 (9th Cir. 2003) (“Relief from
judgment on the basis of newly discovered evidence is
warranted if. . . the newly discovered evidence [is of]
such magnitude that production of it earlier would
have been likely to change the disposition of the
case.”) (internal quotation marks omitted). Plaintiffs
speculation that the bankruptcy court would not have
empowered the trustee to dismiss this action if it had
known earlier that the trustee saw herself as taking
a hands off approach does not satisfy this standard.
See In re Baumann. 2017WL 4581954, *1 (S.D. Cal.
2017) (“Rule 60 provides for extraordinary relief and
may be invoked only upon a showing of exceptional
circumstances.”) (internal quotation marks omitted).

App. 17 - [ECF 22]
In short, the court concludes that plaintiff has
not come forward with new evidence that warrants
setting aside the voluntary dismissal.32
CONCLUSION
This Order is not intended for
publication. Nor is it intended to be included in
or submitted to any online service such as
Westlaw or Lexis.
Based on the foregoing, IT IS ORDERED
THAT plaintiffs Motion to Set Aside Notice of
Voluntary DismissalO (Document No. 16) is
denied.33

32 For the same reason, the court rejects plaintiffs
argument that the purported conspiracy between
defendants and the trustee constitutes “unique
circumstances” which justify relief under Rule
60(b)(6). (See Dkt. 16-1, Memo at 9-12).
33 The court declines to award Rule 11 sanctions
against plaintiff. (See Dkt. 17, Opp. at 19-20). The
court is not convinced that plaintiffs Motion was
brought “for any improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the
cost of litigation[.]” Fed. R. Civ.P. 11(b)(1); see also
Johnson v. Hewlett-Packard Co.. 2014 WL 3703993,
*6 (N.D. Cal. 2014) (noting that sanctions “are an
extraordinary remedy that courts should resort to
sparingly,” and declining to impose sanctions even
where “Plaintiffs’ counsel appears to have
unnecessarily multiplied the proceedings in this
litigation”).

App. 18 - [ECF 22]

Dated this 3rd day of September, 2019.
/s/

Fernando M. Olguin
United States District Judge

App. 19 — [Ninth Circuit's MEMORANDUM]
FILED
SEP 15 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARTEM KOSHKALDA,
individually and as sole
Shareholder and
Transferee of ART, LLC,
PlaintiffAppellant,

No. 19-56187
D.C. No. 2:18-cv05087-FMO-AGR
MEMORANDUM34

v.
SEIKO EPSON
CORPORATION; et al.,
DefendantsAppellees,
and
E. LYNN SCHOENMANN,
Trustee
34 This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.

App. 20 —: [Ninth Circuit's MEMORANDUM]—
Appeal from the United States District Court
for the Central District of California
Fernando M. Olguin, District Judge, Presiding
Submitted September 8, 2020 35
Before:

TASHIMA, SILVERMAN, and
OWENS, Circuit Judges.

Artem Koshkalda appeals pro se from the
district court’s orders denying his motions to set aside
his voluntary dismissal of this action. We have
jurisdiction under 28 U.S.C. § 1291. We review for an
abuse of discretion the district court’s ruling on
motions brought under Federal Rule of Civil
Procedure 60(b). Valdivia v. Schwarzenegger, 599
F.3d 98V4,J88 (9th Cir. 2010). We affirm.
The district court did not abuse its discretion in
denying Koshkalda’s Rule 60(b) motions to set aside
the bankruptcy trustee’s voluntary dismissal of this
action because Koshkalda presented no basis for such
relief. See Fed. R. Civ. P. 60(b); United States v.
Alpine Land & Reservoir Co., 984 F.2d 1047, 1049
(9th Cir. 1993) (explaining that Rule 60(b)(6) relief
has been used “sparingly”
and requires
“extraordinary circumstances”).

35 The panel unanimously concludes this case is
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).

